GR-90-98-030
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF JUSTICE PROGRAMS, BUREAU OF JUSTICE ASSISTANCE
POLICE HIRING SUPPLEMENT GRANT TO THE CITY OF OAKLAND POLICE DEPARTMENT
CALIFORNIA
 
GR-90-98-030
 JUNE 1998
   
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA), to the City of Oakland Police Department (OPD), California. The
OPD received a grant of $1,687,684 to hire 16 additional police officers under the Police
Hiring Supplement (PHS) program. The purpose of the grant was to enhance community
policing efforts.
We found the following weaknesses during our audit regarding the grant conditions:


- The OPD did not fill sworn officer vacancies timely because the OPD required
    approximately nine months to hire and train new officers and the limited number of academy
    classes conducted by the OPD was inadequate. The problem of filling sworn officer
    vacancies in a timely manner was further compounded by a city imposed hiring freeze in FYs
    1995 and 1996.
- The OPD did not have a formal plan to retain sworn officers at the conclusion of the
    PHS grant funding.


#####